<html>
<title> - NOMINATION OF STEVEN H. MURDOCK</title>
<body><pre>[Senate Hearing 110-524]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-524
 
                    NOMINATION OF STEVEN H. MURDOCK

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                 ON THE

  NOMINATION OF STEVEN H. MURDOCK TO BE DIRECTOR OF THE CENSUS, U.S. 
                         DEPARTMENT OF COMMERCE

                               __________

                           DECEMBER 18, 2007

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
41-446 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
                   Kristine V. Lam Research Assistant
 John P. Kilvington, Staff Director, Subcommittee on Federal Financial 
Management, Government Information, Federal Services, and International 
                                Security
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
  J. Kathryn French, Minority Staff Director, Subcommittee on Federal 
  Financial Management, Government Information, Federal Services, and 
                         International Security
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Collins..............................................     3

                               WITNESSES
                       Tuesday, December 18, 2007

Hon. Kay Bailey Hutchinson, a U.S. Senator from the State of 
  Texas..........................................................     1
Steven H. Murdock to be Director, U.S. Census Bureau, U.S. 
  Department of Commerce.........................................     5

                     Alphabetical List of Witnesses

Hutchinson, Hon. Kay Bailey:
    Testimony....................................................     1
Murdock, Steven H.:
    Testimony....................................................     5
    Prepared statement...........................................    19
    Biographical and professional information....................    21
    Responses to pre-hearing questions...........................    31
    Letter from U.S. Office of Government Ethics.................    64
    Responses to post-hearing questions..........................    65

                                APPENDIX

Representative William Lacy Clay, prepared statement.............    72


                    NOMINATION OF STEVEN H. MURDOCK

                              ----------                              


                       TUESDAY, DECEMBER 18, 2007

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:30 p.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, presiding.
    Present: Senators Carper and Collins.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. The Committee will come to order. I am 
pleased to be here with two of my colleagues: Senator Collins, 
Ranking Member of the full Committee, and Senator Kay Bailey 
Hutchison, senior Senator from Texas, who I think will be here 
to introduce our nominee, Mr. Murdock, to be Director of the 
U.S. Census Bureau. And without further ado, I think I would 
like to turn to Senator Hutchison to introduce Dr. Murdock to 
this Committee.
    Senator Hutchison, welcome. It is good to see you.

TESTIMONY OF HON. KAY BAILEY HUTCHISON, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Hutchison. Well, thank you, Senator Carper, Senator 
Hol--Collins, for----
    Senator Carper. Did you say ``Hollings''?
    Senator Hutchison. No. I meant ``Collins''--for having the 
hearing. We really do appreciate it. She does not resemble 
Senator Hollings. [Laughter.]
    Senator Carper. No, she does not.
    Senator Hutchison. But I am really pleased that you are 
having this hearing because, of course, this is a very 
important job that looks for and records the demographic 
changes in our country. And I am pleased to recommend my fellow 
Texan, our State's first demographer, Dr. Steve Murdock, who is 
being nominated for Director of the U.S. Census Bureau.
    Dr. Murdock grew up on a farm in rural North Dakota, the 
youngest of three children. His early education was North 
Dakota State University, with an undergraduate degree in 
sociology, and his first class in graduate school at the 
University of Kentucky changed everything for him. After the 
first demography course, he had found his calling. He went on 
to graduate from the University of Kentucky with a Ph.D. in 
demography and sociology. He is the author of 12 books, more 
than 150 articles and technical reports on the implications of 
current and future demographic and socioeconomic change.
    He holds the Lutcher Brown Distinguished Chair in 
Demography and Organizational Studies at the University of 
Texas at San Antonio. He was named one of the 50 most 
influential Texans by Texas Business Magazine in 1997. He is a 
member of several professional associations, including the 
Population Association of America.
    He is also the recipient of numerous awards and honors, 
including the Faculty Distinguished Achievement Award in 
Research from Texas A&M, the Excellence in Research Award from 
the Rural Sociological Society, and a Distinguished Alum Award 
from the Department of Sociology at the University of Kentucky. 
He is also a member of Phi Beta Kappa.
    I am honored to introduce him to serve as Director of the 
U.S. Census Bureau, and I hope that the Committee will expedite 
his confirmation so that he can get to work for the next 
census.
    Senator Carper. Senator Hutchison, thank you very much. I 
know you have got a lot on your schedule today, and we thank 
you for being here. We are going to have our opening 
statements, Senator Hutchison, and then I will administer an 
oath to Dr. Murdock and ask him under oath if all those nice 
things you said about him are true. [Laughter.]
    So we will find out. Again, thank you so much.
    Senator Hutchison. Thank you very much.
    Senator Carper. Great to see you.
    I am going to give a fairly brief opening statement, and 
then I will yield to Senator Collins for whatever she would 
like to add or take away. And if others show up before it is 
time to swear our witness in, then they can give an opening 
statement as well, or later when they arrive.
    Dr. Murdock, your nomination comes at a crucial time for 
the Census Bureau, as we decided when you were good enough to 
visit me in my office a month or two ago. While the agency is 
not among the largest in our Federal Government, the tasks it 
is responsible for, and particularly the decennial census, are 
among the most important things that we do as a Nation. In 
fact, I believe the decennial census is one of the few things 
that the Constitution actually requires us to do as a Nation. A 
decennial census is a massive undertaking, too.
    Since I took over as Chairman of the Subcommittee with 
oversight over the Census Bureau, I have been struck by the 
complexity of the undertaking and by the amount of staff and 
resources needed to get the job done. There is probably nothing 
out there that compares with it except maybe mail delivery 
during the holiday season or maybe a military campaign the 
likes of which we are staging in several places around the 
world.
    Many of my colleagues and probably most Americans may not 
be aware that the Census Bureau will be working over the coming 
months to make its final preparations for the 2010 census. 
Procedures and technologies will be tested. Field offices will 
be opened. Additional staff will be hired. The final plans for 
how the count will be carried out will be drawn up. It is 
vitally important then that we get a strong management team in 
place as soon as possible, and I am pleased we are able to have 
this hearing, and hopefully to set the stage for getting you 
confirmed before we proceed much further.
    The last decennial census cost, I am told, more than $6 
billion. I understand that this one is projected to cost almost 
twice as much--$11.5 billion. Senator Coburn and I have heard 
testimony from GAO and others that this number may be outdated 
and that the final bill for the 2010 census is likely to be 
even higher. It could be billions of dollars higher if some of 
the technology that is being tested now, particularly the 
handheld computers that census takers will be using, do not 
work as planned or do not work at all.
    In addition, the Census Bureau will be under pressure in 
2010 to improve the accuracy of the census. During the past 
decennials, there has been a sense that a number of groups have 
been undercounted. In order to get the best, most accurate 
count, the Census Bureau will need to step up efforts to reach 
out to those groups that have historically been difficult to 
reach.
    The effectiveness of a number of government programs and 
the fairness of the redistricting process in the House of 
Representatives, except in States like Delaware, where we have 
only one U.S. Representative, depend on the effectiveness of 
these efforts.
    So if you are confirmed, Dr. Murdock, you will certainly 
have your work cut out for you, and I think you know that. 
Management issues and other challenges faced by the Census 
Bureau have raised doubts about our ability to conduct an 
affordable and accurate 2010 census. I look forward to hearing 
how you would use your background--actually, your distinguished 
background--and management skills to erase those doubts and to 
get the tough work ahead of us done, and done well.
    I almost said ``Dr. Coburn.'' I will say ``Dr. Collins.'' 
Senator Collins, please proceed.
    Senator Collins. Thank you, Mr. Chairman.
    Senator Carper. Welcome.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you. When Federal marshals rode 
through northern Maine during the first Federal census in 1790, 
my native county of Aroostook had not yet been established, 
much less my home town of Caribou. And the few inhabitants of 
the region had little contact with Federal officials, much less 
Federal programs. Today, Aroostook County, like every other 
part of our country, is directly affected by the many uses of 
the data collected by the Census Bureau.
    Dr. Steven Murdock, the President's nominee to be the next 
Census Director, has wide-ranging and relevant experience. He 
has been State demographer of Texas, a distinguished professor, 
as the Chairman has mentioned, a data center director, and a 
consultant. He will need that experience as well as 
determination and managerial skill to tackle the challenges 
facing the Census Bureau.
    Many of these challenges have been detailed in reports by 
the Government Accountability Office and other experts. In 
2004, for example, the National Research Council issued a 
report from its Panel on Future Census Methods. That panel 
endorsed the Census Bureau's overall plans for 2010, but warned 
of ``unique risks and challenges'' to be overcome on a tight 
schedule. The panel particularly highlighted the use of new 
technology.
    The panel recommended, among other things, that the Census 
Bureau seek funding well in advance of need, exercise better 
management of project risks, and promote greater use of the 
Internet. A 2004 report by the Inspector General of the 
Department of Commerce raised similar concerns and took note of 
a ``late start'' on setting up an effective project management 
structure.
    It is, therefore, disappointing that the GAO's most recent 
review of preparations for the 2010 census found that many of 
these very same problems persist. For example, the handheld 
computing devices that are supposed to be used to record and 
transmit data for the 2010 census are a concern. GAO staff 
observed field tests this spring and noted ``a number of 
performance issues . . . such as slow and inconsistent data 
processing.'' One census employee's handheld device took 2 
hours to verify 16 addresses at one location in North Carolina. 
The Census Bureau must ensure that this technology works 
properly to avoid a massive and urgent reversion to paper 
forms.
    The GAO has also noted that the Census Bureau is making 
``extensive use of contractors.'' This Committee is well versed 
in the contracting process, having investigated costly debacles 
in both domestic and foreign contracts and having approved 
comprehensive contracting reform legislation. Added to these 
issues is an ever present problem, which the Chairman has 
already mentioned, of inaccurate counting, whether it is over- 
or undercounting. It is evident that the next Census Director 
will have his hands full.
    Finally, consider a matter of unexploited potential, and 
that is the Internet. Last year, Senator Coburn conducted a 
Subcommittee hearing on census costs and technology use. He 
noted that while Canada, Australia, and other countries collect 
census data via the Internet and while Americans can use it to 
file our taxes, the U.S. Census Bureau decided not to develop 
an Internet option for 2010. I look forward to hearing the 
nominee's views on this matter.
    The calendar continues its relentless progress toward April 
2010, leaving the Census Bureau with limited time and capacity 
to make any major changes in the current plans. I look forward 
to exploring the nominee's thoughts on these key challenges and 
his recommendations. Thank you, Mr. Chairman.
    Senator Carper. Senator Collins, thank you very much.
    I am told Dr. Murdock has filed responses to a biographical 
and financial questionnaire, answering pre-hearing questions 
submitted by the Committee, and had his financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record, with 
the exception of the financial data, which are on file and 
available for public inspection in the Committee's offices.
    Committee rules require that all witnesses, Dr. Murdock, as 
you know, give their testimony under oath, and I am going to 
ask you, if you will, at this time to please stand and raise 
your right hand and then respond to the question I am about to 
ask you. Do you swear that the testimony you are about to give 
to the Committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Murdock. I do.
    Senator Carper. Please be seated.
    Dr. Murdock, we will invite you to proceed at this time 
with any opening statement you have, and you may want to start 
by just commenting on whether or not any of those nice things 
that Senator Hutchison said about you were true. Proceed as you 
wish. We are happy that you are here. Your entire statement 
will be made a part of the record. You can summarize as you 
wish.

TESTIMONY OF STEVEN H. MURDOCK,\1\ TO BE DIRECTOR, U.S. CENSUS 
              BUREAU, U.S. DEPARTMENT OF COMMERCE

    Mr. Murdock. Thank you, Senator Carper.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Murdock appears in the Appendix 
on page 19.
---------------------------------------------------------------------------
    Senator Carper, Ranking Member Collins, Senator Coburn, and 
distinguished Members of the Committee, it is a privilege for 
me to appear before you today as the nominee for the position 
of Director of the U.S. Bureau of the Census in the Department 
of Commerce. I am honored that President Bush has nominated me 
for this position, and I am also honored by and grateful to 
Senator Hutchison for her very kind introduction.
    I believe that the Census Bureau is among the best public 
data collection, analysis, and dissemination agencies in the 
world. It is responsible for the cost-effective collection, 
analysis, and reporting of data on the economic, demographic, 
and social characteristics of all the Nation's inhabitants, 
while ensuring the confidentiality of respondents' personal 
data and while maintaining the confidence and cooperation of 
the American people.
    This is a difficult and complex job. It is particularly 
challenging when we are approaching a decennial census that 
provides essential data for the operation of our democracy and, 
in the case of the 2010 census, when it involves the use of a 
number of innovative methods and technologies. These challenges 
are also created by the fact that, in addition to the decennial 
census, the Census Bureau conducts an extensive array of 
surveys and other data collection efforts that are used by 
numerous agencies and other organizations, including the 
Federal Reserve, the U.S. Treasury, the Council of Economic 
Advisers, etc., to measure such critical factors as GDP, 
industrial production, producer prices, levels of employment, 
etc. Such data are essential for the effective and efficient 
operation of private as well as public sector entities across 
the Nation.
    Although the challenges will become more apparent to me 
when and if I am confirmed, several areas are clearly of 
critical importance and will be priority areas for me.
    The fiscal practices of the Census Bureau must be reviewed 
so as to ascertain any potential areas where performance, 
efficiency, and accountability might be improved. In 
particular, I plan to immediately begin a review of progress on 
the major contracts of the Census Bureau relative to the 2010 
census to identify areas where there may be potential impacts 
on the costs and completeness of the 2010 census.
    The 2010 census is the most expensive data collection 
effort in the history of U.S. census taking. Taxpayers must 
obtain an adequate return on their investment, and the Census 
Bureau must continue to implement those management practices 
that improve performance and efficiency while ensuring the 
completeness of the census.
    I will also review and evaluate the practices and 
procedures used to ensure the completeness of the 2010 census, 
the ACS, and other products from the Census Bureau and to 
ensure the confidentiality of respondents' personal 
information. The census must be as complete as possible and 
must ensure that all persons from all backgrounds are included 
in the census. Analysis of the role of the partnership, 
communications, and other programs for improving the count, 
including the count of traditionally difficult to count groups, 
will be included in this examination.
    It is also the responsibility of the Census Bureau to 
ensure that the personal data of those who respond to its data 
collection efforts are protected against all forms of intrusion 
and disclosure. The continued monitoring of census programs to 
maintain the security of such information is critical.
    As noted in my discussions with several of you, I also 
believe it is essential that the Census Bureau carefully 
consider the options provided for responding to the decennial 
census, periodic surveys, and other data collection efforts 
and, where feasible and appropriate, provide respondents with a 
range of potential means of responding.
    I plan to also examine the design and content of data 
products. I have spent my career helping users to more 
effectively employ census and related data to address their 
needs. Census data must be useful to a wide variety of users, 
from Congress to professional statisticians, demographers, 
marketers, and thousands of governmental jurisdictions, to 
members of the public who may use such data to better 
understand their community or to assess the feasibility of 
starting their own small business.
    Procedures for ensuring the usability of census data must 
be continually reviewed. This must include an examination of 
American Community Survey data for small areas employing multi-
year averages and an examination of Census Bureau estimates 
which are used for planning infrastructure and for resource 
allocation across the country.
    Numerous stakeholders in the census and the public as a 
whole must be adequately informed about the importance of 
ensuring a complete count in the census and of the need for 
their cooperation. Ultimately, the success or failure of a 
census, or any other large-scale public data collection effort, 
is dependent on public cooperation and participation. The 
Director of the Census Bureau must play a key role in promoting 
the census to all the people of the United States, and I plan 
to participate in all appropriate ways in this important 
effort.
    If confirmed, these are only some of the many challenges 
that I recognize I will face, for the responsibilities of the 
Director of the U.S. Bureau of the Census are extensive and 
require careful coordination with numerous bodies, among the 
most important of which are the members of this Committee and 
Congress as a whole. I intend to reinforce a culture of sharing 
of appropriate information at the Census Bureau, and if 
confirmed, I commit to working with all of you, my colleagues 
in the Department of Commerce and the Census Bureau, 
stakeholder groups, and other members of the public in ensuring 
that the U.S. Bureau of the Census continues to be an 
outstanding data collection, management, analysis, and 
dissemination agency, continues to be a prudent user of the 
public's resources, and an excellent example of commitment to 
the best in public service.
    Thank you for the opportunity to appear before you today. I 
will be happy to answer any questions that you might have.
    Senator Carper. Dr. Murdock, thank you for your statement.
    As Senator Collins knows, Committee rules require that I 
ask you at least three questions, and we will just start off 
the questioning with each of those.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Mr. Murdock. No.
    Senator Carper. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Murdock. No, I do not.
    Senator Carper. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of Congress if you are confirmed?
    Mr. Murdock. Yes, I do.
    Senator Carper. All right. I think I have a pretty good 
understanding of this, having met with you and having reviewed 
your bio and your experience and your testimony. But the 
decennial census is, as you know, a massive undertaking, and it 
is going to require some extraordinary management skills to 
pull it off and to do it well.
    Just go over for us, if you would, your background, the 
aspects of your background that you think particularly well 
prepare you for a challenge of this nature. And what role would 
you take in ensuring that the decennial operations are meeting 
budget and performance goals?
    Mr. Murdock. Well, my background in census goes back a 
number of decades. I have worked very actively, for example, on 
the 1980, 1990, and 2000 census activities in Texas.
    Senator Carper. Could you describe those activities for us?
    Mr. Murdock. OK. Well, they included--we worked in the 
setup and in the distribution of LUCA materials, for example, 
in the 2000 census. I have been the Federal-State Cooperative 
Program person for estimates and for objections for 20 of those 
years. And we have been the State Data Center for Texas for all 
of those years.
    Now, as a result of that, we have been involved in census 
activities in each of those decades, helping with the process 
of informing people of the need to respond to the census and 
assisting, for example, in the partnership program in 2000 in 
terms of identifying persons and areas that required concerted 
effort to ensure a better count. We have been involved with the 
assessment in a variety of ways of the accuracy and also the 
utility of estimates and projections, particularly estimates 
made by the Census Bureau. And we have worked in Texas and in 
other areas with elected officials in helping them learn to use 
and employ census data to answer their needs.
    I testify frequently before the Texas Legislature on issues 
related to demographics, to the census, and to other materials, 
and I have been very heavily involved with the private sector 
and public sectors across Texas and other parts of the 
Southwest in terms of census issues and census products.
    Senator Carper. All right. When I was elected to the U.S. 
Senate, I thought this was a job that I was pretty well 
prepared to assume. I had been governor of my State for a 
while. I had been a Congressman for 10 years. I testified 
before the House and the Senate in both of those roles. And I 
knew a lot of the folks that were here in the Senate, worked 
with them in one capacity or the other. But I found that when I 
got here, there was plenty I still needed to learn and, 
frankly, I still do.
    When you think of what lies ahead for you, if you are 
confirmed, what are some areas where you really need to go to 
school to better prepare yourself to assume these 
responsibilities and to be successful?
    Mr. Murdock. Well, I think it is humbling when you look at 
a process as complex as the Census Bureau, not only because it 
handles what we all know about the decennial census, but 
presents and collects data on a large number of enterprises and 
activities that are important for the economy as well as for 
our democracy. So I find it very humbling.
    Clearly, my background is such that I will need to become 
much more familiar in a way that I could not become before I am 
confirmed, or if I am confirmed, about the budgetary activities 
in the census, what is happening in terms of certain programs. 
Certainly the concerns you have mentioned, you are not the only 
one to mention those concerns to me, nor to appear in the 
popular press.
    The first thing I need to do is to get a handle on the 
decennial census, particularly the contracts that are out 
there, where they are, what is happening relative to them, and 
to identify what the impacts are on the budgetary issues. In 
other words, are we at a projectory that requires that we seek 
different funding or a different form of funding, and also to 
see what we may need to do in terms of preparing for 
alternatives?
    So I think the first thing is to look at the budget and to 
look at those contracts and to get to know where we stand--
``we'' being the Census Bureau in this case--in each of those 
contract areas, and then to begin a very frank assessment of 
what we need to do to get from here to that complete census 
count, which we all hope to have at the end of 2010.
    Senator Carper. All right. Thank you.
    As you know, the Census Bureau is hoping to have census 
takers following up with non-responders using handheld 
computers rather than paper. The hope, I believe, is that these 
computers will be more efficient than the old paper-based 
system and will cut down on costs that are associated with 
supplies and office space. I understand that these computers 
are also a key part of the Census Bureau's cost containment 
strategy for 2010. However, the computers have not always 
worked as well as planned.
    In addition, my staff has learned that an outside firm 
examining the handheld program has found that, because of poor 
project management on the part of the Census Bureau, the 
computers may not be a viable option for 2010.
    If confirmed, what steps will you take to put this program 
back on track? At what point do you think you might need to 
pull the plug, for example, on this approach and start making 
plans to go back to the old paper-based system that has been 
used in the past?
    Mr. Murdock. Well, I cannot know, I think, without getting 
involved, getting in the census, and looking in detail at 
information that I don't now have access to just what the 
situation is relative to the handheld or other factors. What I 
can commit to you is that I will find out where we stand and 
will aggressively pursue the appropriate funding levels that we 
need to have a complete census. I cannot say at this point 
because I have not been privy to that information, could not be 
until I am confirmed, if I am confirmed, what the best stance 
will be or what actions we might need to take. But that is a 
first priority for me.
    Senator Carper. All right. I am going to make a comparison 
here, and at first it may not seem to make much sense, but bear 
with me and it might.
    A lot of times in going around my State or the country, I 
run into people who have been married for a long time, and when 
I find folks who have been married for a long time, I always 
ask them: What is the secret to being married 40 or 50 or 60 
years? I get some funny answers and some good ones, too. 
However, the one thread that seems to unite most of those 
answers, though, is the word ``communication.'' And I would 
just urge you--and I am sure you know this from your experience 
in Texas. One of the things that we least like around here is 
surprises, whether it is programs that do not work, technology 
that is not working, funds that are insufficient. The sooner we 
know those things, the easier it is for us to be helpful and 
responsive, and the less likely it is that we will be unhelpful 
and unresponsive.
    So I would just urge you, as you take up these reins--we 
want to have a good dialogue with you, an ongoing dialogue with 
you to understand what your challenges are, what you need, and 
how we can be helpful.
    Mr. Murdock. I will commit we will have a good 
communication to the extent that I can implement that. I think 
one of the things that people would say, elected officials 
would say about me in Texas, is that you didn't necessarily 
like all the things that Murdock told you, but he always told 
you what he thought the truth was. And that will not change in 
this setting.
    Senator Carper. Well, that is good. Did you have anybody 
here that you wanted to introduce, any guests or any special 
members of your family?
    Mr. Murdock. No, I do not.
    Senator Carper. All right. Is there anybody in the audience 
you would just like to randomly pick out? [Laughter.]
    Mr. Murdock. No. I wish my wife was here. She broke her leg 
about 6 weeks ago and could not attend. But she, of course, is 
important to this whole process and has been a very big 
supporter of me for a long time.
    Senator Carper. Does she know you are here?
    Mr. Murdock. She knows I am here. [Laughter.]
    Senator Carper. And there is no relationship between the 
broken leg and the fact you have been nominated for----
    Mr. Murdock. No.
    Senator Carper. OK. That is good. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Dr. Murdock, one of the keys to encouraging compliance with 
the census is assuring individuals that their personal 
information that they are providing is going to be safeguarded. 
In 2006, the Department of Commerce reported to Congress that 
some 672 laptop computers were missing from the Census Bureau, 
and some of these computers contained personally identifiable 
information. Then in April 2007, it was disclosed that the 
Census Bureau had mistakenly posted personal data online.
    What measures will you take to ensure that all census data 
that contains personal or identifying information are protected 
and to keep laptops as well as other equipment used to collect 
data--for example, these new handheld devices that we are 
talking about, how will you ensure that they are safe and that 
there are not these kinds of security breaches that really 
undermine public confidence in the census?
    Mr. Murdock. Well, I think there are a number of things 
that are being done from the public record in terms of the 
Census Bureau, in terms of changing the events that led to 
these unfortunate circumstances. They have a fairly advanced 
property management system in place that provides both a paper 
and a computerized system for keeping track of laptops, knowing 
where they are, who has them, and under what conditions. The 
computers now are increasingly encrypted so that if I did 
obtain a copy of a computer of some form, I could not discern 
what the identification--or the information was without the 
code, so to speak. And, increasingly, as I look toward the 
handhelds, one of the features of that will be that the data 
will be transmitted to the data collection centers and then 
will be erased from those handhelds. So these are a number of 
things that are critical in terms of ensuring greater security 
of people's personal information.
    I see no higher priority than maintaining that confidential 
information because, as I said in my opening statement, the 
reality of it is that the census is successful if the American 
people trust us, if they have confidence in us. And each time 
one of these things occurs, a little bit of that confidence 
slips away.
    So I will do my best to ensure that the confidentiality of 
people's personal information is maintained.
    Senator Collins. Senator Carper mentioned the problems with 
some of the contracts that the Census Bureau is involved with. 
Let me first ask you a broader philosophical question. 
According to a GAO report issued last year, as much as 17 
percent of the more than $11 billion that the census is 
projected to cost is going to be spent on seven major 
contracts. This is the most extensive use of contractors in the 
Census Bureau's history.
    Do you think that the Census Bureau relies too heavily on 
outside contractors to accomplish mission-critical work?
    Mr. Murdock. Well, again, I would suggest I cannot know 
whether it is too much or too little until I have looked at it 
in greater detail. I think what you are looking at in several 
of these areas are in the areas of IT, that is, technology, and 
it is very difficult for any public entity--and I have seen 
this at State levels and others--to maintain the kind of up-to-
date staff and to be able to support, frankly, be able to 
afford salaries for the kind of staff that is necessary to keep 
at the cutting edge. So I would expect that if the Census 
Bureau is like other agencies, particularly in these areas, you 
will find more contracting.
    I think contracting is justified or unjustified depending 
on whether it is the most efficient and effective way to 
accomplish the goals of the organization. And this is 
something, as I have indicated previously, that I will look 
into, if and when I am confirmed, immediately in that 
confirmation.
    Senator Collins. Are you familiar with a very new GAO 
report that was issued just last week, on December 11, that 
took a look at some of these key systems acquisition contracts?
    Mr. Murdock. In general terms, but I haven't had a chance 
to look at it in detail.
    Senator Collins. Let me just point out that the GAO 
projects that there is going to be an $18 million cost overrun 
by December of next year in one of the key contracts, and that 
is obviously of concern to me. Even if it is due to changing 
requirements, that is of concern because that means that the 
requirements for the contract were not sufficiently thought 
through in the first place.
    Are you going to personally review contracts to see if they 
are being effectively managed? How concerned are you about an 
$18 million cost overrun?
    Mr. Murdock. Well, I am very concerned about cost overruns 
because we are using the funds of the American people, and I 
think we need to be very clear and very careful in how we use 
those funds.
    I really cannot evaluate at this point what all the causes 
are for that particular sum. I cannot even, frankly, know 
whether that is, in fact, an accurate estimate or not. But I 
will certainly look into it, if and when I am confirmed, 
because cost management is effective. We know that obtaining a 
complete count is critical. It is required by our Constitution. 
It is really one of the hallmarks of our democracy. So it is 
very important to get that. But at the same time, we want to 
obtain such information, being as cost sensitive and efficient 
as we possibly can. And I think we need to make sure that we 
are looking at all those contracts.
    I am not an attorney, but I will certainly look at those as 
the Director and look at what the products are and what the 
deliverables are and what the time frames are, etc.
    Senator Collins. When we have a census that is projected to 
cost double what the last census cost, I for one want to see a 
quantum leap in solving a lot of problems and improving the 
accuracy and making sure that the problems with undercounting 
and overcounting are being resolved. Otherwise, I am going to 
wonder how the cost escalated by that amount. I realize that a 
decade is quite a long time, but a doubling of the cost ought 
to produce some quantifiable benefits to the American people 
and be translated into better accuracy.
    I know my time has expired, and I do have to go on to 
another event. Mr. Chairman, I am just going to ask if I could 
submit for the record a question on undercounting, a question 
on human resources, and also a question on an issue that I know 
is of concern to you and Senator Coburn on the use of the 
Internet and the fact that other countries have done that. So 
thank you very much.
    Senator Carper. You bet. All those questions are in order.
    Senator Collins. Thank you.
    Senator Carper. Thank you, and thank you for joining us.
    I want to return to a point that has already been made 
earlier, but I wanted just to revisit it, if I could, and the 
theme is project management at the Census Bureau. Senator 
Coburn and I have heard testimony at our oversight hearings 
that the Census Bureau does not have enough staff on hand with 
the skills and the backgrounds necessary to effectively manage 
the kind of large-scale IT projects like the handheld computers 
that the Census Bureau hopes to use in 2010.
    And let me just say we have heard a lot of testimony from 
other agencies that they do not have the staff on hand with the 
kind of skills and backgrounds necessary for them to manage 
their large-scale IT programs either.
    But if confirmed, how would you address these alleged 
shortcomings with respect to having the staff on board with the 
kinds of skills and background necessary to manage large-scale 
IT projects?
    Mr. Murdock. Well, obviously, it would be premature for me 
to suggest the extent to which there may be difficulties, but 
certainly as we look at something as critical as the census and 
the census other products, we have to obtain the expertise that 
we need in order to manage funds and to manage contracts. 
Whether that is best done by hiring additional people or by 
doing it on a contractual basis or doing it some other way, it 
is not possible for me to discern at this point, but it must be 
done. And I commit to you that we will do our best to make sure 
that we are managing contracts appropriately.
    Senator Carper. All right. Senator Collins said this just 
before she was leaving. She was talking about the increase in 
the projected cost of the census going from about $6 billion in 
2000 to roughly twice that in 2010. I will tell you, when I 
first heard those numbers, I was shocked. I was shocked because 
our technology is so much better now than it even was 7, 8 
years ago, and I presume it is going to be better still by 
2010. And while we have more people to count, I was surprised 
to find that the cost--I thought it might go up marginally, but 
given the advances of technology, I never imagined an almost 
100-percent increase in projected cost.
    Should I be surprised? Why or why not?
    Mr. Murdock. Well, there are a number of factors that 
obviously are impacting the census. One is certainly that we 
have more people. We have a more diverse population speaking 
multiple languages. We have populations that are living in a 
variety of settings, if you will, in the United States. So 
there are lots of complexities to the American population that 
were, frankly, less there in 1980 or 1990 or even in 2000. And 
as you get complexity in the characteristics of your 
population, thereby the difficulty in counting and ensuring 
that everyone responds to the census increases.
    I really cannot evaluate at this point whether that is a 
level of growth that we should have expected, but certainly 
there are factors simply in what has happened to our population 
that have increased the costs of counting that population.
    Senator Carper. So the long and short of it is I should not 
have been so surprised.
    Mr. Murdock. Well, I cannot tell you what you should be, 
Senator, but I think that it is a substantial growth in the 
cost. We need to make sure that it is appropriate and that we 
are getting our money's worth out of our programs.
    Senator Carper. What do you suppose we could expect for all 
that extra money?
    Mr. Murdock. Well, we are doing a number of things. The re-
engineered census includes, for example, the American Community 
Survey. One of the problems we have had with census data until 
this period of time that we are looking at as we come to the 
2010 census is that we would ask data on socioeconomic 
characteristics at the decennial year, and then each year 
thereafter the data became less accurate because things had 
changed. So, in 1995, we were still using 1990 census data for 
income and education, etc.
    What we have with the new re-engineered census is annual 
data that will be available for areas of all sizes on things 
like income, education, occupational change, etc., things that 
will help us keep a better measurement of what is happening in 
terms of the American society and the American people.
    So we are getting data that we have always wanted in order 
to more effectively chart the situation, the conditions of the 
American population. So it is not like we are getting the same 
products. We are getting substantially improved products and 
increased products that should help you in the Congress as you 
govern our population and the public and the private sector in 
a variety of ways.
    So we are getting more--in addition to the impacts of 
inflation and diversity and so forth of the population, so you 
are getting a better product, a more frequent product from this 
particular census process.
    Senator Carper. All right. Well, thank you for that.
    Senator Collins said, I think, just as she was leaving, 
that she wanted to leave a couple of questions. I think maybe 
one of them dealt with the issue I am about to raise, and that 
is the Internet.
    It turns out I just was handed a note by our staff that 
Senator Coburn is not going to be able to join us today, which 
is too bad because he has a great deal of interest in this 
issue, as do I.
    But as you know, the Census Bureau decided recently not to 
include the Internet as a response option for the 2010 census. 
Again, I was surprised. If somebody had asked me a year or two 
out of the likelihood of us not relying on the Internet, I 
would have not believed it. But I understand that this decision 
came despite the fact that offering an online option would not 
add to the total cost in any significant way.
    Do you think that an online response option would improve 
census response rates? Do you think that it would reduce the 
amount of time and money spent to follow up with households 
that do not respond to the initial census mailing? And if 
confirmed, would you commit to looking into whether the 
Internet can, in fact, be an option in 2010? I would be happy 
to repeat those if you would like.
    Mr. Murdock. Well, as you know, we discussed this when I 
met with you. I think we must ultimately have an Internet 
option among several other options for responding to census 
materials. I commit to you that we can look into this, we will 
look into this for census activities. It may not be possible 
given how far along we are in terms of the 2010 census process 
to do anything in regard to it at this point in time, but I do 
believe we must have it in the long run.
    The Census Bureau has made some tests of Internet options, 
and I think you are aware of some of those. They did not find, 
according to the reports that I have looked at, public reports, 
they did not find a significant increase or improvement in 
response rates as a result of the use of the Internet. And, 
very importantly--and I think this must be a critical element 
as we evaluate the potential use of the Internet--they had 
substantial concerns about the protection of data and personal 
data as a result of hacking, phishing, and other kinds of 
processes.
    As I said, I think we need to have that and a number of 
other options eventually, but we cannot do it until we are sure 
that we can protect the confidentiality of such data, and I do 
commit that we will evaluate that option again and look at it 
particularly for census operations down the road.
    Senator Carper. A lot of folks in my State file their tax 
returns electronically. A lot of people nationally file their 
Federal tax returns electronically, both on the personal side 
and the corporate side. It is hard to imagine information that 
is more sensitive than that which we file with the Delaware 
Division of Revenue or with the IRS. It just seems strange to 
me that while we can do that and have been doing that for a 
number of years, we are unable or maybe unwilling to tackle a 
similar use of the Internet on this front.
    As it turns out, in filing taxes, those who do it actually 
prefer it to having to file the old way. I was reading some 
survey results just this week about people's satisfaction, 
customers' satisfaction with services provided by the 
government. And they reported that the customer satisfaction 
with the IRS was actually up, I think to about 55 percent. And 
for those who file electronically, the customer satisfaction 
was about 75 or 80 percent.
    Mr. Murdock. That is exactly why I believe we must have 
that option ultimately in terms of one option for responding to 
the census. It clearly cannot be the only option, and I cannot 
at this point, until and if I am confirmed and look at the 
materials, commit to any particular time frame or inclusion of 
any particular products. But it seems clear to me that we have 
to get there, and I commit that we will work with you and your 
staffs and others in moving that way.
    Senator Carper. I will just forewarn you, and I am sure you 
have already met with Senator Coburn and talked with him.
    Mr. Murdock. Yes.
    Senator Carper. My guess is this probably came up in your 
conversation.
    Mr. Murdock. Yes, it did.
    Senator Carper. When you are confirmed--and I think you 
will be--and have the opportunity to lead this agency in the 
years ahead, you can just tell the folks that will be working 
with you and for you that there are a couple of folks in 
Congress, Democrats and Republicans, who are real interested 
and who are going to be leaning on you hard to make sure that 
you keep the commitments that you have made. Sometimes we do 
not like to change things. We are comfortable with the way we 
have always done things, and that has got to change. And I 
respect the fact that you are prepared to use these handheld 
computers--I say ``you''--the Census Bureau is prepared to use 
the handheld computers, but we think you can do more and 
better.
    When I was governor and very involved in the National 
Governors Association, we always talked about the States as 
laboratories of democracy. If we were looking to do something 
better on education or welfare reform or transportation, we 
would always look to other States to see what they had done, 
and then we would steal their ideas and never give them credit. 
But in terms of just looking at your post as demographer of 
Texas and all your work in Texas, is there anything that you 
can point to where you have relied on technology or the 
Internet, harnessing it in ways that might help or might inform 
what you do as Director of the Census?
    Mr. Murdock. Well, certainly we have found ourselves, as 
the State Data Center, going from an entity where we answered 
phone calls and we sent out xeroxed materials to a situation 
where nearly everyone contacts us through the Internet. The 
vast amount of our data is distributed as a result of web-based 
activities, and it has totally changed the nature of what we 
want in people. For example, we now ensure that everybody----
    Senator Carper. When you say ``what we want in people,'' 
employees?
    Mr. Murdock. Meaning in terms of skills, for example, so 
that State Data Center people who used to be the first point of 
response for the public, they needed to know how to find census 
data, and then they needed to be good in terms of running runs 
and so forth to provide it. Now we need people who are good at 
using the Internet and are good at locating data and helping 
people find that customized data that they usually want.
    One of the things that has happened with the increase in 
technology is that people want more specific information. They 
are no longer happy with information that is State level if 
they really want county level, and then county level if they 
really want sub-areas of counties.
    So we, certainly in Texas, grew accustomed to getting more 
specific as a result of using technology, and I see no reversal 
of that. We are going to increasingly rely on those kinds of 
ways of disseminating information.
    Senator Carper. All right. I know we have discussed this at 
an earlier hearing--not you and I, but others before us. We 
have talked about different countries, and I presume that most 
of the countries of the world, certainly the major countries of 
the world, conduct a census from time to time. And my guess is 
that some of them actually figured out how to use the Internet 
effectively and how to ward off the hackers. Am I mistaken? Or 
has somebody already invented this wheel?
    Mr. Murdock. I am not an expert on censuses done by other 
countries, but certainly there are countries--Canada and 
Australia, for example, are examples of countries that have 
used the Internet as at least part of their response.
    Now, not in all cases did they necessarily improve response 
rates, as I understand it, but certainly looking into other 
entities' use of these kinds of information, providing sources, 
is one of the things that we will do.
    Senator Carper. In my State of Delaware, our State motto 
is, ``It is good being first,'' and the reason why that is our 
State motto is because we were the first State to ratify the 
Constitution. On December 7, 1787--220 years ago almost to the 
day--Delaware ratified the Constitution, and for one whole week 
we were the entire United States of America. So that is our 
motto: ``It is good to be first.''
    Sometimes there are some things, though, you do not want to 
be first in, and using the Internet to actually do a part or 
all of your census may be one of those things. But it is good 
that other countries have gone first. You mentioned a couple of 
them. And we can learn from them what they did well and what 
they did not do so well, and their experiences, good or bad, 
can help to inform us, and particularly the Census Bureau, as 
we figure out how to use the Internet for a part of the census 
that is coming up. And I would just urge us to do that.
    I have at least one more question, and then I think we will 
let you escape. Again, this has been touched upon already, but 
I want to come back to it one more time.
    When census time comes around, there is always discussion 
of the groups out there that in the past have been 
undercounted. Senator Collins alluded to that. Could you just 
take a minute or so to discuss some of the groups that have 
historically been undercounted? And what do you think are some 
of the better strategies for getting them counted this time?
    Mr. Murdock. Well, obviously, if you look at censuses as 
long as we have been doing evaluations of the accuracy of the 
count, certain populations have been repeatedly undercounted. 
These include minority populations--African Americans, 
Hispanics, other groups as well. It includes disproportionately 
young adults versus older--more middle-aged and older persons. 
This included--more likely to exclude, rather, people in rental 
housing, etc. So we have seen a set of percentages for a long 
time that have indicated that certain groups are more likely to 
be missed.
    As I look at the 2010 census, drawing on the experience 
from the 2000 census, clearly some of the things that we will 
do to address that, which I think are in place or will soon be 
in place and are very important, is the partnership program. I 
watched this in Texas, in areas like the colonias of Texas, 
where it was very difficult to obtain information for a variety 
of reasons, and by getting local people, people who were parts 
of those communities as members of the partnership 
organizations, we were able to get information that had been 
missed by the census in previous periods.
    So I think a strong partnership program is very critical, 
and that program is one that, as you know, has been funded by 
Congress in a variety of ways.
    In addition, as you know, the census is involved in a very 
active advertising campaign and communication program. It has 
very active advisory groups that it draws on to provide 
contacts to critical communities that have been among those 
that have been undercounted. It is a very important area. We, 
as Americans, want as complete a count of everyone as we can 
possibly get, and we have to take those actions that will get 
us there.
    Senator Carper. Thank you. The point you just made about 
the partnerships, that just makes a whole lot of sense, and the 
idea of reaching into those communities that are undercounted 
and drawing from those folks who can come forward and work with 
the Census Bureau to reduce the undercounts is, I think, a wise 
thing to do.
    Those are my questions for today. As Senator Collins 
suggested, she had a couple of other questions she is going to 
submit for the record.
    Let me just ask before we wrap it up here, is there 
anything else that you would like to say that maybe during the 
course of our conversation has come to mind that you would like 
to--maybe just to get it off your chest?
    Mr. Murdock. Well, the only thing that I would like----
    Senator Carper. Maybe you are having second thoughts about 
this job. I do not know. [Laughter.]
    Mr. Murdock. The only thing that I would like to commit 
again to you is that I will look forward to working with 
Congress to work together to address these issues that are of 
concern not only to you in Congress but those people that you 
represent. And so I just want to commit again to working with 
you to get us the best possible census we can possibly obtain.
    Senator Carper. I welcome that comment to close with. What 
I try to do around here is just to get things done and to get 
people to work together toward that end. In my old job as 
governor, you had to get stuff done. You had to produce, you 
had to show results, and if you did not, folks would fire you 
and hire somebody else. And I describe myself as a ``recovering 
governor,'' and among the challenges that we face as a Nation, 
one of the biggest ones is getting the census done and getting 
it done right. And it is going to take all of us pulling 
together and making sure that it happens. We have an obligation 
to conduct oversight and, if you will, hold the feet of 
different agencies within the Executive Branch to the fire, and 
we will do that. But we will try to do that always in a 
constructive way.
    Again, I want to thank you for your willingness to serve. 
We thank you for joining us today, for responding to our 
questions, and, I believe, having responded to other questions 
that have been posed to you by us in private meetings or in our 
offices or in response to questions that have been posed to you 
by members of our staff, our Committee and Subcommittee staffs.
    Without objection, the hearing record will remain open 
until the close of business today for the submission of any 
additional statements and questions. And, with that, this 
hearing is adjourned. Thank you all and happy holidays.
    Mr. Murdock. Thank you.
    [Whereupon, at 4:30 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T1446.001

[GRAPHIC] [TIFF OMITTED] T1446.002

[GRAPHIC] [TIFF OMITTED] T1446.003

[GRAPHIC] [TIFF OMITTED] T1446.004

[GRAPHIC] [TIFF OMITTED] T1446.005

[GRAPHIC] [TIFF OMITTED] T1446.006

[GRAPHIC] [TIFF OMITTED] T1446.007

[GRAPHIC] [TIFF OMITTED] T1446.008

[GRAPHIC] [TIFF OMITTED] T1446.009

[GRAPHIC] [TIFF OMITTED] T1446.010

[GRAPHIC] [TIFF OMITTED] T1446.011

[GRAPHIC] [TIFF OMITTED] T1446.012

[GRAPHIC] [TIFF OMITTED] T1446.013

[GRAPHIC] [TIFF OMITTED] T1446.014

[GRAPHIC] [TIFF OMITTED] T1446.015

[GRAPHIC] [TIFF OMITTED] T1446.016

[GRAPHIC] [TIFF OMITTED] T1446.017

[GRAPHIC] [TIFF OMITTED] T1446.018

[GRAPHIC] [TIFF OMITTED] T1446.019

[GRAPHIC] [TIFF OMITTED] T1446.020

[GRAPHIC] [TIFF OMITTED] T1446.021

[GRAPHIC] [TIFF OMITTED] T1446.022

[GRAPHIC] [TIFF OMITTED] T1446.023

[GRAPHIC] [TIFF OMITTED] T1446.024

[GRAPHIC] [TIFF OMITTED] T1446.025

[GRAPHIC] [TIFF OMITTED] T1446.026

[GRAPHIC] [TIFF OMITTED] T1446.027

[GRAPHIC] [TIFF OMITTED] T1446.028

[GRAPHIC] [TIFF OMITTED] T1446.029

[GRAPHIC] [TIFF OMITTED] T1446.030

[GRAPHIC] [TIFF OMITTED] T1446.031

[GRAPHIC] [TIFF OMITTED] T1446.032

[GRAPHIC] [TIFF OMITTED] T1446.033

[GRAPHIC] [TIFF OMITTED] T1446.034

[GRAPHIC] [TIFF OMITTED] T1446.035

[GRAPHIC] [TIFF OMITTED] T1446.036

[GRAPHIC] [TIFF OMITTED] T1446.037

[GRAPHIC] [TIFF OMITTED] T1446.038

[GRAPHIC] [TIFF OMITTED] T1446.039

[GRAPHIC] [TIFF OMITTED] T1446.040

[GRAPHIC] [TIFF OMITTED] T1446.041

[GRAPHIC] [TIFF OMITTED] T1446.042

[GRAPHIC] [TIFF OMITTED] T1446.043

[GRAPHIC] [TIFF OMITTED] T1446.044

[GRAPHIC] [TIFF OMITTED] T1446.045

[GRAPHIC] [TIFF OMITTED] T1446.046

[GRAPHIC] [TIFF OMITTED] T1446.047

[GRAPHIC] [TIFF OMITTED] T1446.048

[GRAPHIC] [TIFF OMITTED] T1446.049

[GRAPHIC] [TIFF OMITTED] T1446.050

[GRAPHIC] [TIFF OMITTED] T1446.051

[GRAPHIC] [TIFF OMITTED] T1446.052

[GRAPHIC] [TIFF OMITTED] T1446.053

[GRAPHIC] [TIFF OMITTED] T1446.054

                                 <all>

</pre></body></html>
